HHS/OIG, Audit - "Review of Medicaid Disproportionate Share Hospital
Payments to Runnells Specialized Hospital:  November 1, 1996, Through June
30, 2001," (A-02-05-01007)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Medicaid Disproportionate Share Hospital Payments to Runnells Specialized
Hospital:  November 1, 1996, Through June 30, 2001," (A-02-05-01007)
July 18, 2007
Complete
Text of Report is available in PDF format (416 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Disproportionate share hospital (DSH)
payments to Runnells Specialized Hospital exceeded the hospital-specific limits
imposed by section 1923(g) of the Social Security Act and the approved State
Medicaid plan by $2,239,179 ($1,119,590 Federal share).  State officials relied
solely on a contractor to prepare and document the additional DSH claims and
failed to ensure the accuracy of the claims before submitting them for Federal
reimbursement.
We recommend that New Jersey (1) refund $1,119,590 to the Federal Government,
(2) adhere to Federal law and State plan requirements when submitting future DSH
claims subsequent to June 2001 for Federal reimbursement, and (3) review all
work performed by consultants to ensure the veracity of future Medicaid claims
to the Federal Government.  New Jersey generally agreed with our
recommendations.